                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 800.233.5874
                                                                                           Online Reporting Tool
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          February 20, 2014

Subject:       Final Report on the Audit of Peace Corps/Armenia (IG-14-03-A)

Transmitted for your information is our final report on the audit of Peace Corps/Armenia.

Management concurred with all four recommendations. We closed all four recommendations. In
its response, management described actions it is taking or intends to take to address the issues
that prompted each of our recommendations. We wish to note that in closing recommendations,
we are not certifying that the agency has taken these actions or that we have reviewed their
effect. Certifying compliance and verifying effectiveness are management’s responsibilities.
Our comments, which are in the report as Appendix E, address these matters.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Senior Auditor Waheed Nasser at 202.692.2905.

Please accept our thanks for your cooperation and assistance in our review.


cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Joseph Hepp, Chief Financial Officer
        Paul Shea, Deputy Chief Financial Officer
        Kathy Rulon, Acting Director, EMA
        Samuel Taylor, Budget Officer
        Susanna Karap-Szilagyi, Director, Global Accounts Payable
        Barry Simon, Director, Office of Medical Services
        Patricia Barkle, Deputy Chief Compliance Officer
        Hill Denham, Expert, EMA
        Nancy Gehron, Chief Administrative Officer, EMA
        David Lillie, Country Director, Armenia
        Carol Melo, Roving Director of Management and Operations, Armenia
        Armenia Desk
Peace Corps
Office of Inspector General




  Peace Corps Volunteer Lorraine Moore (right) and
   an Armenian teacher (left) interact with students




                  Flag of Armenia




         Final Audit Report:
        Peace Corps/Armenia
             IG-14-03-A
                                                       February 2014
                               EXECUTIVE SUMMARY
BACKGROUND
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Armenia (hereafter
referred to as “the post”) from April 1 to April 13, 2013. We previously performed a follow-up
audit September 6-12, 2007 and issued our report in October 2007 (IG-08-01-FUA).

Staff:
    U.S. direct hires: 3
    Foreign service nationals: 1
    Full-time personal services
    contractors (PSC): 24

Funds (approx.):
   Fiscal Year (FY) 2012 post spending -
   $1.8 million                                                  Map of Armenia
   Average regional overhead - $418,400

WHAT WE FOUND
The post’s financial and administrative operations were effective and in overall compliance with
agency policies and federal regulations. We noted a few areas in need of improvement,
specifically the post:

        paid $41,604 in compensation to PSCs over the U.S. Embassy’s local compensation plan
        (LCP) without adequate justification;

        maintained an underused vehicle that was unnecessary and could be sold allowing
        government funds to be put to better use; and

        incorrectly used “PC/Armenia” as a generic vendor name to charge $8,742 in payments
        as a rental property object class code.

RECOMMENDATIONS IN BRIEF
Our report contains four recommendations directed to the post. The post took corrective actions
and OIG closed all four recommendations. We commend the post for its responsiveness and
cooperation with this audit.




Final Audit Report: Peace Corps/Armenia                                                            i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................................... i

BACKGROUND ....................................................................................................................................... 1

AUDIT RESULTS .................................................................................................................................... 2
           Vehicle Management ............................................................................................................................................. 2

           Local Compensation Plan Deviation .................................................................................................................... 3

           Generic Vendor Names ......................................................................................................................................... 5

           Information Technology ........................................................................................................................................ 6


OTHER AREAS OF CONCERN ............................................................................................................... 7

LIST OF RECOMMENDATIONS ............................................................................................................. 8

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY................................................................. 9

APPENDIX B: LIST OF ACRONYMS .................................................................................................... 10

APPENDIX C: QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE................................ 11

APPENDIX D: MANAGEMENT’S RESPONSE                                           TO THE P RELIMINARY REPORT ............................... 12


APPENDIX E: OIG COMMENTS ......................................................................................................... 15

APPENDIX F: AUDIT COMPLETION AND OIG CONTACT ................................................................ 16
                                             BACKGROUND
We conducted the audit of the post April 1-13, 2013. We previously performed a follow-up audit
September 6-12, 2007 and issued our report in October 2007 (IG-08-01-FUA).

More than 830 Peace Corps Volunteers have served in Armenia since the inception of the
program in 1992. At the time of our audit, 86 Volunteers were working in two sectors: education
and community/youth development. The post had three U.S. direct hires, one foreign service
national, and 24 full-time personal services contractors (PSCs). The post’s FY 2012 spending
was approximately $1.8 million. In addition, at headquarters, the Europe, Mediterranean, and
Asia (EMA) region incurred an average of approximately $418,400 per overseas post.1

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.

Notable Practices
The EMA region and the post had implemented cost-effective mechanisms to promote
efficiency. The Government Accountability Office, “Standards for Internal Control in the
Federal Government,” discusses the need for monitoring within an organization and the role of
separate evaluations. It states:

         Separate evaluations of control can also be useful by focusing directly on the controls’ effectiveness at a
         specific time. The scope and frequency of separate evaluations should depend primarily on the assessment
         of risks and the effectiveness of ongoing monitoring procedures. Separate evaluations may take the form of
         self-assessments as well as review of control design and direct testing of internal control. Separate
         evaluations also may be performed by the agency Inspector General or an external auditor.

The PC/Romania director of management and operations (DMO) conducted a review of
administrative functions at PC/Armenia. The review included an assessment of the post’s imprest
fund operations, cash counts, transactions and support for leases, PSCs, purchase cards, travel
cards, and travel card logs. It identified 21 findings, which the post took action to remediate. We
verified that several of the post-initiated corrective actions helped remedy deficiencies that are
often identified by our audits. We encourage the Europe, Mediterranean and Asia region and the
posts to continue with this form of monitoring.




1
 The agency was unable to provide the total cost per post as certain costs are centrally budgeted and managed by
headquarters offices including the salaries and benefits of U.S. direct hires. The Peace Corps Office of Budget and
Analysis provided the total cost of $8.3 million incurred by the Europe, Mediterranean and Asia region in direct
support of its 20 overseas posts in FY 2011, which is an average of $418,000 per post.


Final Audit Report: Peace Corps/Armenia                                                                               1
                                     AUDIT RESULTS
VEHICLE MANAGEMENT

The post did not conduct sufficient analysis of vehicle usage to ensure the appropriate number
of vehicles.

Presidential Memorandum “Federal Fleet Performance,” states, “...the Federal fleet should operate
only as many vehicles as needed to work efficiently....” (May 24, 2011). The Peace Corps Manual
section (MS) 527 and the Peace Corps’ Vehicle Fleet Management Guide provide guidance on
establishing the maximum number of vehicles a post is authorized (vehicle ceiling).

Our analysis of the vehicle usage for 12 months ending in August 2012 indicated that the post
regularly used four of its six vehicles. The other two vehicles accounted for approximately nine
percent of total kilometers driven and 11 percent of maintenance costs incurred for the same
period. According to the general services manager, the post did not use its 2005 Toyota pick-up
truck regularly due to its three passenger capacity. In addition, the post only used its 12-
passenger Toyota Minibus three months out of the year for its Volunteer training events.

The post’s annual vehicle status report in August 2012 listed six authorized vehicles with an
annual operating cost of approximately $15,281 U.S. Dollar Equivalent (USDE) to support 86
Volunteers. The post had approximately one vehicle for every 14.5 Volunteers, which is better
than the agency-wide ratio of one vehicle for every 12 Volunteers.

          Table 1. FY 2012 Annual Vehicle Maintenance and Fuel Cost (in USDE)
                    Vehicle               Fuel    Maintenance         Total     Mileage
                     Type                 Cost       Cost             Cost       (Km)
           Land Cruiser - 2005         $189         $201              $390         733
           Minibus - 2008              1,498         110              1,608       7,624
           Nissan - 2009               4,410         679              5,089      24,090
           Land Cruiser - 2010         4,279         535              4,814      28,238
           Land Cruiser - 2010         1,316         480              1,796      26,790
           Avensis - 2011               773          811              1,584       4,815
           Totals                     $12,465       $2,816          $15,281      92,290

Based on our analysis, the post could operate effectively with only five vehicles by reducing its
vehicle ceiling by one vehicle. During the course of our audit the post conducted a cost-benefit
analysis of its vehicle fleet and ultimately decided to reduce its vehicle fleet by one vehicle, the
2005 Land Cruiser. We commend the post for its responsiveness for promoting efficiency in the
management of its vehicle fleet. By reducing its vehicle fleet ceiling the post will avoid the costs
associated with replacing the Land Cruiser, saving approximately $50,000. The post decided to
keep the Minibus because the cost of leasing one for three months a year would be $5,143, while




Final Audit Report: Peace Corps/Armenia                                                            2
the cost of keeping it would be $4,957. We agreed with the post’s analysis regarding the
Minibus.

                    Figure 1. Minibus used during Volunteer trainings (left)
                    and 2009 Nissan vehicle in the post’s parking lot (right)




                We recommend:

                    1. That the director of management and operations
                         monitor vehicle usage and ensure the post operates its
                         vehicle fleet efficiently.


LOCAL COMPENSATION P LAN DEVIATION

Seven PSC salaries exceeded the maximum compensation of equivalent positions listed in the
U.S. Embassy’s LCP.

MS 743, “Personal Services Contracts with Host Country Residents,” Basic Compensation,
states:

       The policy for basic compensation for Peace Corps personal services contracts is that the negotiated base
       compensation shall be fair and reasonable. This determination must be made by the Contracting Officer
       prior to awarding the contract. Contracting Officers should use such factors as salary history and a local
       market survey (by Peace Corps or other organizations) of positions with similarly required qualifications,
       skills sets, certifications, and work requirements.

       The range of compensation in the applicable State Department Local Compensation Plan may be
       considered as well for determining fair and reasonable based compensation.

Although MS 743 does not require the post to use the LCP to determine PSC compensations, it
suggests that the LCP be used in considering fair and reasonable compensation. The Peace Corps


Final Audit Report: Peace Corps/Armenia                                                                             3
Office of Human Resource Management provided frequently asked questions (FAQs) regarding
compensation of post staff. The FAQs state:

       For host country resident personal service contractor [HCRPSC] staff, an equivalency grade should be
       provided for each contract position as a way to equitably relate pay between employee and contract
       positions. HRM can assist post management by providing equivalency grades for contract positions using
       the FSN classification system. Post can then use the Local Compensation Plan as a guideline for setting
       contract rates. Equity in benefits, both monetary and non-monetary, between FSNs and HCRPSCs should
       be taken into account before finalizing compensation packages.

The post had seven PSCs whose salaries exceeded the maximum compensation of equivalent
positions listed in the U.S. Embassy’s LCP. The post did not provide justification for salary
increases, such as a local market survey of positions with similarly required qualifications and
skills sets. The excess compensation from January 2010 through the end of current personal
service contracts as of December 2013, totaled $41,604 USDE as detailed below.

                     Table 2. Total Basic Compensations in Excess of LCP
                               Staff         Date Salary First        Excess in
                               No.*           Exceeded LCP              USDE
                                 1               01/02/11               1,541
                                 2               01/03/10               4,634
                                 3               01/03/10               4,634
                                 4               01/03/10               15,273
                                 5               01/02/11               2,631
                                 6               01/03/10               11,350
                                 7               01/02/11               1,541
                               Total                                   $41,604
                          *Staff number is used in place of actual names

In December 2012, the DMO initiated action to gradually bring the PSCs’ compensations in-line
with similar salaries in the LCP. MS 743 procedures states, “PSCs are solely entitled to the
compensation and benefits specified within the terms of their contracts unless, in rare cases, local
law overrides such agreed upon benefits.” When making adjustments to PSC contracts it is
important to understand how PSCs are treated according to local labor laws and their
requirements. The DMO consulted the U.S. Embassy but had not consulted the Office of
Acquisitions and Contact Management or a local lawyer until our audit identified the need to do
so.

We consider the amount of compensation in excess of the LCP maximums as a questioned cost
because the post could not provide adequate justification and support for paying amounts above
what the LCP considered fair and reasonable.




Final Audit Report: Peace Corps/Armenia                                                                          4
                We recommend:

                    2. That the director of management and operations
                         establish a process to determine fair and reasonable
                         compensation, including consideration of the local
                         compensation plan, and ensure the basis for
                         compensation is documented in the personal services
                         contractor files.


GENERIC V ENDOR NAMES

The post incorrectly used “PC/Armenia” as a generic vendor name instead of the actual name
to record $8,742 in payments.

The Peace Corps’ Overseas Financial Management Handbook, Section 13.14.1 states:

       All payments from the imprest fund require a valid receipt, signed by the person actually receiving the
       funds (not by the staff person who received the interim advance) or a formal receipt issued by a vendor
       (e.g., register receipt from a grocery store). The “Payee” to be entered into FOR Post therefore must also
       be the vendor, not the staff member taking the interim advance. (The exception is for “claims,” such as
       medical or taxi. For claims, the Payee is the staff member or Volunteer.)

       In the circumstance where there is no single payee (a group paid together), the “Payee” entered into FOR
       Post must be a specific description of the Payees or Payments. Good Payee names: “Host Family
       Allowances” and “PST Supplies.” Bad Payee names: “Peace Corps/Country” and “Misc Payees.”

Our analysis of the post’s disbursements indicated that the post erroneously used “PC/Armenia”
as a generic vendor name instead of the actual name to record $8,742 as a rental property object
class code. Using the actual vendor’s name will maintain the integrity of financial data and
minimize any potential fraud. Accurate and reliable financial information is necessary for
managers to make informed decisions about agency resources and to provide oversight of
payments, for example identifying duplicate payments.

                We recommend:

                    3. That the director of management and operations
                         establish and enforce formal procedures to ensure that
                         disbursements are recorded in the appropriate vendor’s
                         name.




Final Audit Report: Peace Corps/Armenia                                                                             5
INFORMATION TECHNOLOGY

The post had an information technology contingency plan, but had not recently tested the plan
or included specifics on disaster recovery.

The National Institute of Standards and Technology Special Publication 800.53, “Security and
Privacy Controls for Federal Information Systems and Organizations,” requires testing
contingency plans for information systems to determine the effectiveness of the plan and the
organizational readiness to execute the plan; reviewing the contingency plan test results; and
initiating corrective actions, if needed.

According to the information technology specialist (ITS), the post prepared a contingency plan
but never tested it. The contingency plan included several essential elements including priorities,
disaster types, recovery procedures, and points of contact. The ITS should finalize and test the
post’s information system security plan. In addition, the plan could be improved by adding
information about manual processes and how the recovery site would be set up and made
operational.

               We recommend:

                   4. That the post test the information technology
                       contingency plan yearly.




Final Audit Report: Peace Corps/Armenia                                                           6
                               OTHER AREAS OF CONCERN
We noted the following additional areas that could be improved to enhance efficiency.

        Bills of Collection. From October 2011 through May 2013, the post processed 201 of
        383 or 52 percent bills of collection (BOC) for personal phone usage. The post could
        minimize its workload in preparing BOCs, general receipts, and following up on
        outstanding BOCs regarding personal phone usage. The post could also enhance its
        current phone policy to minimize staff’s time processing BOCs and to better limit
        personal use of phones.

        PSC Cashier Appointment. Following changes in the law made by the Kate Puzey Peace
        Corps Volunteer Protection Act of 2011 (Kate Puzey Act) affecting Peace Corps personal
        services contractors (PSCs), the agency issued MS 743a 2, “Personal Services Contracts with
        Host Country Residents.” This MS permits PSCs to perform inherently governmental
        functions, actions so intimately related to the public interest as to require performance by
        U.S. government direct hire employees, including serving as cashiers. The Kate Puzey Act
        permits the agency to deem a PSC an employee for any purpose other than for the purposes
        of any law administered by the Office of Personnel Management. 3 Prior to this change, PSCs
        could not be considered employees for any purpose and could not perform inherently
        government functions. These restrictions were included in their agency PSC contracts.

        The post contracted with a PSC to serve as its cashier. However, that individual could not
        assume cashiering duties for three months because the changes in the law had not been
        clearly communicated to the Departments of State and Treasury.4 The cashier was able to
        perform other tasks in her statement of work while waiting for headquarters to obtain the
        proper authorizations. However, the agency could have been more efficient with better
        planning and coordination with the post.




2
  PSCs whose contracts are awarded or amended bilaterally after the enactment of Kate Puzey Act are considered
employees for most purposes.
3
  22 U.S. Code § 2509(a)(5).
4
  U.S. Department of State Foreign Affairs Manual Volume 4, Handbook 3, “Cashier Management,” section H-
393.1.1 states, “Only a direct-hire, permanent employee of the Department of State of any nationality or employees
hired under personal services agreement (PSA) or personal services contract (PSC) authorities (e.g., 22 U.S.C. 2669,
22 U.S.C. 2396(a)(3), etc.) that are exempt from Office of Federal Procurement Policy (OFPP) Policy Letter No. 92-
1 “Inherently Governmental Functions” may be designated by the servicing USDO to be a Department of State
cashier.”


Final Audit Report: Peace Corps/Armenia                                                                           7
                          LIST OF RECOMMENDATIONS
We recommend:

    1. That the director of management and operations monitor vehicle usage and ensure the post
        operates its vehicle fleet efficiently.

    2. That the director of management and operations establish process to determine fair and
        reasonable compensation, including consideration of the local compensation plan, and
        ensure the basis for compensation is documented in the personal services contractor files.

    3. That the director of management and operations establish and enforce formal procedures to
        ensure that disbursements are recorded in the appropriate vendor’s name.

    4. That the post test the information technology contingency plan yearly.




Final Audit Report: Peace Corps/Armenia                                                         8
     APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, OIG was established within the Peace Corps as an independent entity that reports to
both the Director and Congress. The purpose of OIG is to prevent and detect fraud, waste, abuse,
and mismanagement and to promote economy, effectiveness, and efficiency in government.

Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of PC/Armenia covered FYs 2010-12 and up to February 2013. While at the post, we
interviewed key staff including the country director, DMO, staff responsible for administrative
support, and the lead Peace Corps medical officer. We communicated issues and areas of
improvement to post senior staff and Peace Corps management at headquarters, and included
significant issues noted during our audit in this report.

Although we could not independently verify the reliability of all this information, we compared
it with other available supporting documents to determine data consistency and reasonableness.
We relied on the results of the annual Federal Information Security Management Act review,
which did not identify significant deficiencies with data reliability that would impact our audit.
Based on these efforts, we believe the information we obtained is sufficiently reliable for this
report.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, the Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Armenia                                                              9
                      APPENDIX B: LIST OF ACRONYMS

  BOC                        Bills of Collection
  DMO                        Director of Management and Operations
  FAQ                        Frequently Asked Question
  FY                         Fiscal Year
  ITS                        Information Technology Specialist
  LCP                        Local Compensation Plan
  MS                         Peace Corps Manual Section
  OIG                        Office of Inspector General
  PSC                        Personal Services Contractor
  USDE                       United States Dollar Equivalent




Final Audit Report: Peace Corps/Armenia                              10
                  APPENDIX C: QUESTIONED COSTS AND
                    FUNDS TO BE PUT TO BETTER USE
We identified funds to be put to better use and questioned costs during the course of the audit.

                                     Funds Put to Better Use

        Finding                                Description                            Amount
           1            Reducing vehicle authority by one vehicle                     $50,000



                                Questioned Cost - Unsupported

        Finding                                Description                            Amount
           2            Salary payment over the maximum rate listed on LCP            $41,604


The Inspector General Act defines funds put to better use and questioned costs as the following:

       Funds put to better use: funds that could be used more efficiently if management took
       actions to implement and complete the recommendation.

       Questioned costs: costs that are questioned because of an alleged violation of a provision
       of a law, regulation, contract, grant, cooperative agreement or document governing
       expenditure of funds; a finding that, at the time of the audit, such cost is not supported by
       adequate documentation; or a finding that the expenditure of funds for the intended
       purpose is unnecessary or unreasonable.




Final Audit Report: Peace Corps/Armenia                                                            11
                APPENDIX D: MANAGEMENT’S RESPONSE
                    TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Armenia             12
                        APPENDIX E: OIG COMMENTS
Management concurred with all four recommendations. We closed all four recommendations
based on evidence of corrective actions that address the recommendations.

In their response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, or that we
have reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Armenia                                                         15
      APPENDIX F: AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION                  This audit was conducted under the direction of Assistant
                                  Inspector General for Audit Bradley Grubb by Senior Auditor
                                  Waheed Nasser. Additional support was provided by Lead
                                  Auditor Hal Nanavati.




                                  Assistant Inspector General for Audit
                                  Bradley Grubb

OIG CONTACT                       If you wish to comment on the quality or usefulness of this
                                  report to help us strengthen our product, please contact
                                  Assistant Inspector General for Audit Bradley Grubb at
                                  bgrubb@peacecorps.gov or 202.692.2914.




Final Audit Report: Peace Corps/Armenia                                                         16
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
